F1
APPLICATION AND SOLICITATION DISCLOSURE
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases
APR for Balance Transfers
APR for Cash Advances
Penalty APR and When it Applies
How to Avoid Paying Interest on Purchases
Minimum Interest Charge
For Credit Card Tips from the Consumer
Financial Protection Bureau
Fees
Annual Fee
- Annual Fee
Transaction Fees
- Balance Transfer Fee
- Cash Advance Fee
- Foreign Transaction Fee
Penalty Fees
- Late Payment Fee
- Returned Payment Fee

8.90
F2

to 18.00
F3
when you open your account, based
on your creditworthiness.
8.90
F4
to 18.00
F5
when you open your account, based on your
creditworthiness.
F6
to 18.00
F7
when you open your account, based on your
8.90
creditworthiness.
None
F8
Your due date is at least 25 days after the close of each billing cycle.
We will not charge you any interest on purchases if you pay your entire
balance by the due date each month.
None
F9
To learn more about factors to consider when applying for or
using a credit card, visit the website of the Consumer Financial
Protection Bureau at http://www.consumerfinance.gov/learnmore.
None
F10
None
F11
$
5.00 or F13
2.00 % of the amount of each cash advance, whichever is
F12
greater
None
F14
Up to F15
$ 25.00
Up to F16
$ 32.00

How We Will Calculate Your Balance. We use a method called “average daily balance (including new purchases).”
Effective Date.
April 1, 2010.
The information about the costs of the card described in this application is accurate as of F17
This information may have changed after that date. To find out what may have changed, contact the Credit Union.
OTHER DISCLOSURES
Late Payment Fee
Returned Payment Fee

Document Copy Fee
Rush Fee
Card Replacement Fee

©CUNA Mutual Group 2009, 10, 12 All Rights Reserved

$ 25.00 or the amount of the required minimum payment, whichever is
F18
less, if you are ten (10) or more days late in making a payment.
F19
$ 25.00 or the amount of the required minimum payment, whichever is
less. In the event a payment is returned in the same or in any of the six
(6) billing cycles following the initial violation, you will be charged $
F20
32.00
or the amount of the required minimum payment, whichever is less.
F21
$ 5.00
F22
$ 15.00
$ 10.00
F23

DGAGD2 (MXC402 CCM002)-e

